NO. 20-723

In The Supreme Court of the United States
PENNSYLVANIA HIGHER EDUCATION ASSISTANCE AGENCY,
Petitioner,
v.
SUSAN ALLAN and JESSICA WILSON,
Respondents,
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit
CERTIFICATE OF SERVICE
I hereby certify that on February 18, 2021, a true and correct copy of the foregoing
Response To Petition For A Writ Of Certiorari was electronically filed and sent via Priority Mail
to the U.S. Supreme Court, and a copy served on the following via U.S. Mail and electronic mail:
George W. Hicks, Jr.
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
george.hicks@kirkland.com
Counsel for Petitioner
I declare under penalty of perjury that the foregoing is true and correct.
Dated: February 18, 2021

/s/ Adam T, Hill
Adam T. Hill
The Law Offices of Jeffrey Lohman, P.C.
28544 Old Town Front Street, Suite 201
Temecula, CA 92590
Telephone: (657) 236-3525
AdamH@jlohman.com
Attorney for Respondents

